APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Order of the Supreme Court of the State of
California Denying the Application for Relief
(September 25, 2020).......................................... 1a
Opinion of the Court of Appeals of the State of
California (August 14, 2020) .............................. 2a
Concurring Opinion of Justice Baker
(August 14, 2020) ............................................. 28a
Judgment of the Superior Court of the State of
California (May 31, 2018) ................................ 29a

App.1a
ORDER OF THE SUPREME COURT OF THE
STATE OF CALIFORNIA DENYING THE
APPLICATION FOR RELIEF
(SEPTEMBER 25, 2020)
SUPREME COURT OF CALIFORNIA
________________________
ARNO P. KUIGOUA,
v.
CALIFORNIA CORRECTIONS
HEALTH CARE SERVICES
________________________
Case No. S264647
Denied and the case is closed. (Cal. Rules of Court,
rule 8.60(d).).

App.2a
OPINION OF THE COURT OF APPEALS
OF THE STATE OF CALIFORNIA
(AUGUST 14, 2020)
COURT OF APPEAL OF THE STATE OF
CALIFORNIA SECOND APPELLATE DISTRICT
DIVISION FIVE
________________________
ARNO P. KUIGOUA,

Plaintiff and Appellant,
v.
CALIFORNIA CORRECTIONS HEALTH CARE
SERVICES ET AL.,

Defendants and
Respondents.
________________________
B291984
Before: RUBIN, P.J., MOOR, J. BAKER, J..
INTRODUCTION
Plaintiff Arno P. Kuigoua appeals from summary
judgment of his employment discrimination and
wrongful termination claims, entered in favor of
defendant California Correctional Health Care Services
(CCHCS). We affirm because no triable issue of
material fact exists for the six causes of action as
alleged in the operative first amended complaint:
retaliation, discrimination, and failure-to-prevent, in

App.3a
violation of the Fair Employment and Housing Act
(“FEHA”); retaliation under the Labor Code and the
Whistleblower Protection Act; and discrimination and
retaliation by a health care facility under the Health
and Safety Code.
FACTS AND PROCEDURAL BACKGROUND
1.

Plaintiff’s Employment with CCHCS

In 2010, plaintiff, a man of Cameroonian descent,
began working as a registered nurse with CCHCS at
various prison facilities. “California Correctional Health
Care Services is part of the California Department of
Corrections and provides health care services to
inmates housed at California’s state prisons.” In
2012, plaintiff was promoted to part-time supervisor
registered nurse II at Lancaster Prison. Plaintiff’s
duties included planning, assisting and directing the
work of the nursing staff; ensuring duties were
assigned and shifts covered; developing nursing service
policies and procedures; and the recruiting and
evaluation of nursing staff.
As a part-time employee, plaintiff was guaranteed
20 hours of work per week. In point of fact, he
typically worked more than 70 hours per week because
he volunteered for overtime, although some of the
overtime was compulsory. In December 2013, plaintiff
was offered a permanent full-time position as a supervisor registered nurse at California City Correctional
Facility, but declined the job so that he could keep his
part-time position at Lancaster Prison.
In the present lawsuit, plaintiff asserted that
CCHCS subjected him to adverse employment actions

App.4a
beginning in late 2013 and wrongful termination in
May 2015 as a result of gender discrimination. 1
Below, we summarize the principal employment
events that formed the basis for plaintiff’s claims and
those he raised during summary judgment proceedings.
As we shall explain, the theories plaintiff asserted in
response to defendant’s summary judgment motion
were not always square with the allegations he made
in his first amended complaint, a fatal misalignment
in defending against summary judgment.
2.

Tension Between Defendant and His Supervisors

Many of the incidents plaintiff complained of
involved his former supervisor, Sharon Brooks. The
first incident occurred in late December 2013, when
plaintiff and Brooks had an email exchange about
another employee receiving a specific shift. Plaintiff
characterized Brooks’s decision to schedule the
employee as wasteful. Plaintiff attested that he filed
an internal complaint against Brooks with the prison
warden and CEO about the scheduling, but it was not
addressed.
Plaintiff alleged that following this complaint, he
suffered a series of retaliatory actions. Two days later,
the director of nursing at CDCR told plaintiff in an
email to follow a particular procedure for shift
changes, explaining plaintiff recently had not followed
1 Plaintiff asserted in his first amended complaint and opening
brief that he was terminated on June 5, 2015. Plaintiff cited his
own declaration for support of this statement. Records provided
by CCHCS indicate his transfer to the Department of Veteran
Affairs was completed on May 11, 2015. Any discrepancy in the
date does not affect our analysis.

App.5a
the procedure when dealing with one of his staff.
Plaintiff attested that about one month later, the
director accused plaintiff of failing to perform job duties.
Plaintiff attested that in February 2014, the
director and Brooks falsely accused plaintiff of wrongdoing and insubordination. He asserted that in March
2014, he was shouted at, accused of failing to complete
several job duties, and was written up for “care
incidents.”
On March 27, 2014, he received a formal Letter of
Instruction for his failure to prepare a medication
error report in March 2013. The year lapse of time
between the error and the letter appeared attributable
to CCHCS’s internal investigation.
3.

April 2014 National Origin Complaints

Plaintiff responded to the Letter of Instruction in
a memorandum, dated April 10, 2014. He accused
Brooks of retaliation and discrimination based on his
natural origin or nepotism. He wrote that the letter of
instruction represents “the epiphany of retaliation
practice and discrimination, favoritism. I’m trying
hard to find the reason behind the bigotry I am being
subject to. I can come up with only two reasons: my
national origin or nepotism.”
On April 13, 2004, plaintiff wrote an email to
himself-he is listed as both sender and recipient. The
email, though, starts “Dear Ms. Shank,” an apparent
reference to CCHCS CEO Penny Shank. The email
requests a meeting about his disputes with Brooks
and others. It continues, “I would like to know why I
am being subject (between Ms. Brooks and Ms. Pryor)
to increasing harassment, discrimination, favoritism. I

App.6a
can’t find any rational explanation other than my
national origin.” In a memorandum also dated April
13, 2014, which he testified he sent to CEO Shank,
plaintiff complained that he was subjected to discrimination, harassment, and retaliation, and again repeated
he could assume that it was due to “national origin”
discrimination.2 In an April 16, 2014 memorandum,
plaintiff stated he believed national origin discrimination prompted another supervisory employee to
become upset with him for kicking her chair.
4.

Conflict with Brooks Over Supervisor Duties

On May 1, 2014, Supervisor Brooks sent out an
email to supervisory staff, including plaintiff, which
stated: “Please make sure your staff correct their
mistakes, if the staff is on vacation it will become your
responsibility to correct.” Via email, copying the recipients of Brooks’s original email, plaintiff responded the
same day: “This practice will go against the Nursing
Practice Act (‘NPA’) which is the body of California
law that mandates the Board to set out the scope of
practice and responsibilities for RNs.”
In a May 2, 2014 email, Brooks provided further
direction to plaintiff and all other persons copied on
plaintiff’s email. She stated: “The correction will need
to occur as indicated per Title 22 and to ensure licensure for [Lancaster Prison]. Now, as a supervisor I did
not believe I had to break down each and every exact
function that you as a nurse and supervisor will need
to perform and assess. However, if you and others

2 The record is unclear whether the email actually was sent to
Ms. Shank. The memorandum was.

App.7a
with responsibilities to the CTC are requiring this,
please let me know.”
Plaintiff sent another email on May 4, 2014,
stating he “vehemently decline[d]” to follow Brooks’s
directive. Plaintiff’s direct supervisor, Nair Manjula,
responded that same day, providing further guidance
to plaintiff. Manjula explained via email: “You have
taken the directive ‘your responsibility to correct it’ as
if you were asked to chart in the eUHR. You as a
supervisor are responsible for your staff omissions or
inaccuracy. The way to correct it is: 1-counsel the
staff. 2-give them training. 3-monitor their work. 4-if
error repeats you write them up. 5-if error continues
then go to progressive discipline.”
5.

Passed Over for Promotions and Overtime

In July 2014, plaintiff filed a grievance asserting
that he was unreasonably denied overtime hours in
July 2014 due to his national origin.
In spring and fall 2014, plaintiff applied for three
promotions but received none. According to its pattern
and practice, CCHCS selected the three highest
scoring applicants in the interview process for those
positions. These applicants happened to be female.
6.

Sick Leave and First Complaint of Gender
Discrimination

On December 14, 2014-six weeks before what would
be his last day working at CCHCS-plaintiff stated in
an email to management that he believed he was
being mistreated due to his national origin.
On January 28, 2015, plaintiff submitted a Discrimination Complaint Form with the Department of

App.8a
Corrections and Rehabilitation alleging not national
origin discrimination but gender discrimination. The
complaint identified a licensed vocational nurse by
the name of Monique Nwachukwu as responsible for
the discrimination plaintiff experienced. He alleged
that he reported the discrimination to Manjula, Brooks,
and Shank.3
On January 30, 2015, plaintiff went off work on
sick leave. He did not return to Lancaster Prison.
Instead, plaintiff filed a worker’s compensation claim
for stress.
7.

Plaintiff Accepts a Job with Another State
Government Department

On January 15, 2015, before taking his sick leave,
plaintiff applied for a position with California Department of Veterans Affairs (CalVet). In mid-April, CalVet
offered and plaintiff accepted a permanent full-time
RN position with CalVet.
While completing an incompatibility activities
policy form, plaintiff revealed to CalVet for the first
time that he wanted to maintain his employment as a
permanent part-time supervisor registered nurse at
Lancaster Prison. On May 11, 2015, CalVet notified
plaintiff that he would be unable to maintain both
positions, as the CalVet position was subject to
mandatory overtime depending on operational need.
CCHCS learned that plaintiff had accepted a fulltime nursing position on May 11, 2015 when it
3 The form plaintiff submitted contained 16 blank boxes, one
for each of several forms of discrimination, including national
origin. The only box plaintiff checked was “sex/gender.”

App.9a
received an email from CalVet. Following the email,
CCHCS transferred plaintiff’s employment to CalVet
that same day.4
8.

Equal Employment Opportunity Commission
(EEOC) Complaint

In the interim, in February 2015, plaintiff filed a
charge with the EEOC, in which he claimed that he
was subjected to gender discrimination. CCHCS
responded substantively to the EEOC complaint on
April 11, 2015. On June 18, 2015, he amended his
EEOC complaint, to include the allegation that he
was discharged from his position at CCHCS.
On October 15, 2015, plaintiff again amended his
EEOC complaint to include his claim that he was not
permitted to work for both CalVet and CCHCS,
complaining that this was due to his gender. CCHCS
responded to these amended EEOC Complaints on
November 12, 2015. None of the amendments to
plaintiff’s EEOC complaint alleged discrimination on
the basis of national origin.
9.

Complaint with the State Personnel Board

On March 7, 2016, more than a year after the filing
of his EEOC complaint, plaintiff filed a whistleblower
retaliation complaint with the State Personnel Board.
On April 11, 2016, the State Personnel Board dismissed
plaintiff’s complaint.

4 As of June 26, 2017, well after plaintiff filed his first amended
complaint, plaintiff was still working at CalVet.

App.10a
10. Plaintiff’s Lawsuit Against CCHCS
Plaintiff filed the present lawsuit against CCHCS
alleging discrimination. The first amended complaint,
dated June 14, 2016, was the operative pleading at the
time of summary judgment and alleged six causes of
action. We describe in summary fashion each of cause
of action. The first alleged that CCHCS retaliated
against plaintiff after he had complained about
gender discrimination while working at Lancaster
Prison. The second alleged that CCHCS engaged in
gender discrimination by promoting less-qualified
female candidates for the supervisor positions to
which he applied. In the third cause of action, plaintiff
asserted that CCHCS failed to prevent the gender discrimination and retaliation alleged in the first two
prior causes of action.
The fourth cause of action stated that CCHCS had
retaliated against him in violation of Labor Code, section 1102.5 after plaintiff complained about staffing
and supervisory matters, including a supposed directive
allowing nurses to work for 24 hours straight.5 In the
fifth cause of action, plaintiff alleged he was retaliated
under Health and Safety Code section 1278.5 when
he made disclosures about the quality of patient
care. The final cause of action, brought under the
California Whistleblower Protection Act, asserted

5 Labor Code, section 1102.5, subdivision (b) prohibits retaliation
for, among other things, disclosing information to a person with
authority over the employee or who has the authority to
investigate the disclosure “if the employee has reasonable cause
to believe that the information discloses a violation of state or
federal statute. . . . ” (Lab. Code, § 1102.5, subd. (b) (italics added).)

App.11a
that plaintiff’s employment was terminated after he
made his complaints about patient care.6
11. Summary Judgment
In July 2017, CCHCS moved for summary judgment. CCHCS argued that plaintiff’s first cause of
action failed because it was for retaliation based on a
complaint of gender discrimination, and plaintiff had
not complained about gender discrimination while
working at Lancaster Prison. CCHCS also asserted
plaintiff had not been subject to an adverse employment
action.
For the second cause of action, for the failure to
promote, CCHCS asserted that the nurses who had
been selected over plaintiff were better qualified for
the job, and that plaintiff could not show any connection
between his gender and the failure to promote. Next,
CCHCS argued that, if the first two causes of action
failed, so did the third cause action for failure to prevent
the wrongs alleged in the first two causes of action.
On the fourth cause of action, CCHCS argued
plaintiff did not make protected disclosures required
by the Labor Code and, therefore, could not show
retaliation for the disclosures he alleged. On the fifth
cause of action, CCHCS asserted in part that plaintiff
6 Health and Safety Code section 1278.5 states: “A health facility
shall discriminate or retaliate, in any manner, against a
patient, employee, member of the medical staff, or other health
care worker of the health facility because that person has. . . .
Presented a grievance, complaint, or report to the facility, to an
entity or agency responsible for accrediting or evaluating the
facility, or the medical staff of the facility, or to any other
governmental entity.” (Health and Saf. Code, § 1278.5, subd.
(b)(1)(A).)

App.12a
had not complied with the presentation requirements
of the Government Claims Act. On the sixth cause of
action, CCHCS contended that plaintiff neither had
made a protected disclosure under the California
Whistleblower Protection Act, nor had he suffered an
adverse employment action within the Government
Code limitations period.
Plaintiff opposed the motion, largely relying on
his own declaration, deposition testimony, and documentary evidence to support his gender discrimination and retaliation claims. CCHCS replied to the
opposition with argument and objections to some of
plaintiff’s evidence.
The court heard the motion on May 4, 2018. The
trial court sustained some of CCHCS’s evidentiary
objections, overruled others, and granted CCHCS’s
request of judicial notice of the EEOC and State Personnel Board complaints. Plaintiff does not appeal
these evidentiary rulings. The court determined that
no genuine issues of material fact existed for any of six
causes of action. In a well-reasoned opinion, which we
discuss in greater detail below, the trial court granted
summary judgment. On May 31, 2018, the court
entered judgment. Plaintiff moved for a new trial; the
motion was denied based on untimely service on
defendant. Plaintiff appeals.
DISCUSSION
We review a trial court’s decision on summary
judgment de novo, “considering all of the evidence the
parties offered in connection with the motion (except
that which the [trial] court properly excluded) and the
uncontradicted inferences the evidence reasonably

App.13a
supports.” (Merrill v. Navegar, Inc. (2001) 26 Cal.4th
465, 476.)
“‘A trial court properly grants summary judgment
where no triable issue of material fact exists and the
moving party is entitled to judgment as a matter of
law.’ [Citations.] If a defendant establishes that one or
more elements of a cause of action cannot be
established or that there is a complete defense to that
cause of action, the burden shifts to the plaintiff to
show that a triable issue exists as to one or more
material facts. [Citation.] If the trial court finds that
no triable issue of fact exists, it then has the duty to
determine the issue of law. [Citations.]” (Getchell v.
Rogers Jewelry (2012) 203 Cal.App.4th 381, 385.)
“[A] summary judgment motion is directed to the
issues framed by the pleadings. [Citations.] Those are
the only issues a motion for summary judgment must
address. [Citations.]” (Hilton K. v. Greenbaum (2006)
144 Cal.App.4th 1406, 1412.) An “appellant may not
defeat a summary judgment motion by producing
evidence to support claims that are outside the issues
framed by the pleadings.” (Vournas v. Fidelity Nat.
Tit. Ins. Co. (1999) 73 Cal.App.4th 668, 674, fn. 6.)
We address each cause of action in turn.
1.

First Cause of Action for Retaliation in Violation
of FEHA

The trial court concluded that plaintiff had failed
to create a triable issue of fact for retaliation under
FEHA because plaintiff did not present evidence that
any claimed retaliation resulted in an adverse
employment action. We agree.

App.14a
To “establish a prima facie case of retaliation
under the FEHA, a plaintiff must show (1) he or she
engaged in a ‘protected activity,’ (2) the employer subjected the employee to an adverse employment action,
and (3) a causal link existed between the protected
activity and the employer’s action.” (Yanowitz v.
L’Oreal USA, Inc. (2005) 36 Cal.4th 1028, 1042.)
Here, plaintiff alleged in the first amended
complaint that that he “complained about his supervisor
engaging in discriminatory and retaliatory behavior,
based upon [his] complaints about gender,” and that
as a result of the “protected activities in complaining
about his supervisor’s sexist words and/or actions,” he
was retaliated against.
The undisputed evidence showed that plaintiff did
not complain to his supervisors about gender-based
discrimination during his tenure at Lancaster prison.
As the trial court observed, the evidence plaintiff presented “indicates that [his] complaint[s] to [CCHCS]
were about national origin discrimination or
nepotism . . . and not gender discrimination.” Plaintiff’s
April 10, 2014 memo stated: “I’m trying hard to find
the reason behind the bigotry I am being subjected
to. I can come up with only two reasons: my national
origin or nepotism.” As late as December 14, 2014,
weeks before he stopped physically working at
Lancaster Prison, plaintiff asserted that he was
being subjected to “discrimination based on my national
origin.”
Plaintiff argues that the April 10, 2014 memo was
sufficient because it complained of discrimination. The
document complained of national origin discrimination, and plaintiff did not plead national origin discrimination in his first amended complaint. “‘The

App.15a
pleadings delimit the issues to be considered on a
motion for summary judgment. [Citation.]’ [Citation.]
Thus, a ‘defendant moving for summary judgment
need address only the issues raised by the complaint;
the plaintiff cannot bring up new, unpleaded issues in
his or her opposing papers.’” (Laabs v. City of
Victorville (2008) 163 Cal.App.4th 1242, 1253 (Laabs).)
“If the opposing party’s evidence [to a motion for
summary judgment] would show some factual assertion, legal theory, defense or claim not yet pleaded,
that party should seek leave to amend the pleadings
before the hearing on the summary judgment motion.”
(Distefano v. Forester (2001) 85 Cal.App.4th 1249,
1264-1265.)
As the trial court pointed out at the hearing,
plaintiff did not seek to amend his pleadings to
include the national origin discrimination claim.
Plaintiff was thus limited to the gender discrimination
allegations of his first amended complaint. Plaintiff’s
2014 memos and emails failed to satisfy the first element of this cause of action.
Plaintiff is correct that his January 28, 2015
EEOC complaint alleged gender discrimination. Yet,
as the trial court observed, the timing of this complaint
negates any claim that CCHCS retaliated against
plaintiff on the basis of gender. Plaintiff left work on
sick leave on January 30, 2015. CCHCS did not have
notice of the EEOC complaint until February 2015. For
plaintiff to prevail on a claim of gender retaliation as
alleged in his complaint, he was required to show an
adverse employment action occurred after he had made
his gender-based complaints. In his opening brief on
appeal, plaintiff points to several adverse employment
actions: denial of overtime, reduction in hours, assign-

App.16a
ments to undesirable and long shifts, and failure to
promote. But plaintiff conveniently ignores that none
of these claimed adverse actions were in response to a
complaint about gender discrimination. At the time of
these events, plaintiff had complained only of national
original discrimination, a claim not alleged in the first
cause of action.
The only alleged act of retaliation after the
January 28, 2015, EEOC notice was on May 11, 2015,
when, as plaintiff puts it, he “was terminated from
employment for accepting an additional appointment.”
But the uncontroverted evidence was that CCHCS
did not terminate plaintiff at all. While out on sick
leave, plaintiff on his own chose to take a full-time
position with another state department, CalVet. When
advised that plaintiff had accepted a new job, CCHCS
dutifully transferred his employment to the new
department. Plaintiff argues that he was not voluntarily
transferred because he wanted to hold both positions.
It may be true that he hoped to maintain dual
employment but that was not available under state
personnel guidelines.
A CalVet personnel officer attested that plaintiff
would not have been permitted to hold both, and that
CalVet would not have offered plaintiff the position if
it had known he had intended to keep his job at
CCHCS. She explained: “As the only RN at the
facility, [plaintiff] may be subject to mandatory overtime
depending on operational need.” This was the same
policy in effect at Lancaster Prison when plaintiff
worked there, and was at least one of the reasons
behind his decision not to accept a different full-time
job in December 2013.

App.17a
Nothing in plaintiff’s summary judgment papers
negated the evidence that his acceptance of the
CalVet job constituted a voluntary relinquishment of
his job at Lancaster Prison. Nor does the record
reflect that when he realized his mistake at CalVet,
he asked to return to his CCHCS part time position.
His unauthenticated belief, expressed in his deposition,
that he could hold both positions was not evidence of
that claim. (Guthrey v. State of California (1998) 63
Cal.App.4th 1108, 1118 [speculation that discrimination
occurred is insufficient to create triable issue of
material fact on summary judgment].)
We agree with the trial court that plaintiff did not
create a triable issue of fact as to the first cause of
action.
2.

Second Cause of Action for Gender Discrimination
in Violation of FEHA

Plaintiff’s second cause of action alleged gender
discrimination in violation of FEHA. To establish a
prima facie case of discrimination, a plaintiff must
show that: “(1) he was a member of a protected class,
(2) he was qualified for the position he sought or was
performing competently in the position he held, (3) he
suffered an adverse employment action, such as termination, demotion, or denial of an available job, and (4)
some other circumstance suggests discriminatory
motive.” (Guz v. Bechtel National Inc. (2000) 24
Cal.4th 317, 355 (Guz).) In the summary judgment
context, the employer can attack one of these elements or show that the adverse employment action
was based upon legitimate, nondiscriminatory factors.
(Galvan v. Dameron Hospital Assn. (2019) 37
Cal.App.5th 549, 559.) “‘If the employer meets its

App.18a
initial burden, the burden shifts to the employee to
“demonstrate a triable issue by producing substantial
evidence that the employer’s stated reasons were
untrue or pretextual, or that the employer acted with
a discriminatory animus, such that a reasonable trier
of fact could conclude that the employer engaged in
intentional discrimination or other unlawful action.”’”
(Ibid.)
Plaintiff’s second cause of action alleged that
CCHCS “specifically” discriminated against plaintiff
by promoting “less qualified female candidates for
supervisor positions that Plaintiff was eligible for and
expressed interest in.”
In moving for summary judgment, CCHCS
provided evidence of its legitimate business reasons
for the promotion decisions. Plaintiff had applied for
two full-time supervisor registered nurse II promotions
that became available in early 2014. A single interview
process was conducted for these two positions and
seven people (including plaintiff) were interviewed
before a panel. The highest-scoring and second-highest
applicant scores were 37 and 33 (out of a possible 51
points), and those two applicants were offered the two
available positions. Plaintiff scored 27 out of a 51.
Because plaintiff was not the highest scoring or secondhighest scoring applicant, he was not offered either of
the two available positions. The uncontroverted
evidence was that CCHCS acted in accordance with
its “pattern and practice” to offer positions to the
highest scoring applicant.
A third full-time supervisor registered nurse II
position became available in October 2014, and plaintiff
applied. A panel interviewed all candidates. The
successful applicant for this position scored 37 out of a

App.19a
maximum possible 57 points; plaintiff was the secondhighest scoring applicant, with a score of 30. Consistent with CCHCS’ practice, the candidate with the
highest score during the interviews, not plaintiff, was
offered the position.
In response, plaintiff asserted that the promotions
were based on gender and cited his deposition testimony, in which he testified that he believed he was
better qualified for the position. As the trial court concluded, “Even when viewed in the light most favorable
to Plaintiff, Plaintiff’s self-serving deposition testimony
is insufficient to demonstrate discriminatory motive or
to demonstrate that [CCHCS]’s offered reason for
denying him the promotions was not legitimate.” A
“plaintiff’s subjective beliefs in an employment discrimination case do not create a genuine issue of fact;
nor do uncorroborated and self-serving declarations.”
(King v. United Parcel Service, Inc. (2007) 152 Cal.
App.4th 426, 433.)
Plaintiff argues that in addition to being passed
over for promotions, he was denied overtime, suffered
discipline and verbal abuse, was given a less desirable
schedule, and was terminated as a result of the discrimination. He did not plead any of these adverse actions in his second cause of action which was
“specifically” based on the failure to promote. (See
Laabs, supra, 163 Cal.App.4th at p. 1258.) The trial
court correctly concluded no triable issue of fact existed
as to the second cause of action.
3.

Third Cause of Action for Failure to Prevent
Discrimination and Retaliation Under FEHA

The third cause of action for failure to prevent discrimination and retaliation, brought under Govern-

App.20a
ment Code section 12940, subdivision (k), incorporated
the discrimination and retaliation claims of the first
two causes of action. “An actionable claim under section 12940, subdivision (k) is dependent on a claim of
actual discrimination: ‘Employers should not be held
liable to employees for failure to take necessary steps
to prevent such conduct, except where the actions
took place and were not prevented.’” (Scotch v. Art
Institute of California (2009) 173 Cal.App.4th 986,
1021.) We agree with the trial that the third cause of
action must fail because plaintiff did not show that
the underlying discrimination and retaliation occurred.
4.

Fourth Cause of Action for Retaliation in Violation
of Labor Code Section 1102.5

Labor Code, section 1102.5, subdivision (b) prohibits retaliation “for disclosing information” to a person
with authority over the employee or another employee
who has the authority to investigate the matter disclosed “if the employee has reasonable cause to believe
that the information discloses a violation of state or
federal statute. . . . ”
To establish a prima facie case of retaliation, a
plaintiff must show: “(1) she engaged in a protected
activity, (2) her employer subjected her to an adverse
employment action, and (3) there is a causal link
between the two.” (Patten v. Grant Joint Union High
School Dist. (2005) 134 Cal.App.4th 1378, 1384 (Patten).) The employee must “reasonably believe [he] was
disclosing a violation of state or federal law.” (Id. at p.
1386.)
Here, the trial court concluded that plaintiff did
not present evidence that he engaged in a protected
activity. We agree.

App.21a
Although plaintiff raised a variety of protected
activities in opposition to summary judgment, he
argues only a single alleged protected activity on
appeal. Plaintiff asserts that he was retaliated against
after reporting “labor violations when [Supervisor]
Brooks authorized employees to work more than 24
consecutive hours.”
The undisputed facts show that on July 24, 2014,
plaintiff sent an email complaint to management
regarding a directive he received from supervisor
Brooks. He indicated Brooks’s directive suggested
that staff members could work 24 hours straight if the
staff member chose to do so. Plaintiff stated he
refused to comply because he “believed this directive
to be unlawful.”7
The record does not reveal that Brooks’s directive
was unlawful. Title 8, California Code of Regulations
section 11040, subdivision (3)(B)(10), allows for employees to voluntarily agree to work a 24-hour shift. That
section provides: “Provided further that no employee
shall be required to work more than 16 hours in a 24
hour period unless by voluntary mutual agreement of
the employee and the employer, and no employee
shall work more than 24 consecutive hours until said
employee receives not less than eight (8) consecutive
hours off duty immediately following the twenty-four
consecutive hours of work.” (Cal. Code Regs., tit. 8,
§ 11040, subd. (3)(B)(10).)
7 Plaintiff received a response to his email complaint less than
an hour later, which said that “Management” was “addressing
the concerns he had brought forward.” The next day, Brooks
provided a memorandum clarifying that, “staffs [sic] may not be
required or volunteer to work . . . more than 16 hours of
overtime within a 24 hours work day.”----

App.22a
It is true that plaintiff complained about the
practice, but it was not about illegal activity. Even in
his email, plaintiff stated only that he felt the directive
violated “ethics and common law.” Yet, feelings, without
any basis in law, do not amount to reasonable beliefs.
“‘To have a reasonably based suspicion of illegal
activity, the employee must be able to point to some
legal foundation for his suspicion—some statute, rule
or regulation which may have been violated by the
conduct he disclosed.’” (Ross v. County of Riverside
(2019) 36 Cal.App.5th 580, 592 (Ross).)
Plaintiff did not direct the trial court’s attention
to any statute, rule or regulation that formed his
belief that the 24-hour voluntary shift was illegal, nor
did he do so in his opening brief here. Even when
defendant challenged plaintiff on this point in
respondent’s brief, plaintiff’s reply was limited to the
“ethics and the common law” point he made in his
email, and a generalized argument that he believed
the extended shift was illegal. The trial court correctly
concluded that the absence of any protected activity
was fatal to plaintiff’s fourth cause of action. Citing
Yanowitz, supra, 36 Cal.4th at page 1043, plaintiff
argues that “even if it were accepted that [plaintiff]
misunderstood Brooks’ directive, retaliation is nonetheless unlawful so long as [plaintiff] reasonably and
in good faith believed Brooks’ directive authorized an
unlawful act.” Yanowitz addressed a FEHA retaliation
claim, not a Labor Code section 1102.5, subdivision (b)
retaliation claim. The difference is significant.
Under FEHA, it is unlawful for “any employe . . .
to discharge, expel, or otherwise discriminate against
any person because the person has opposed any
practices forbidden under this part or because the

App.23a
person has filed a complaint, testified, or assisted in
any proceeding under this part.” (Gov. Code, § 12940,
subd. (h).) This statute has no requirement that the
employee have a reasonable belief that a state or
federal statute has been violated by the employer.
Implied is a reasonable belief that the employer’s
conduct was discriminatory. (Yanowitz, surpa, 36
Cal.4th at p. 1043.)
In contrast, Labor Code, section 1102.5, subdivision
(b) expressly requires the employee to have “reasonable
cause to believe that” he is disclosing “a violation of
state or federal statute.” Courts have interpreted this
to require the employee to “‘to point to some legal
foundation for his suspicion—some statute, rule or
regulation which may have been violated by the
conduct he disclosed.’” (Ross, supra, 36 Cal.App.5th at
p. 592; Patten, supra, 134 Cal.App.4th at pp. 13841385; Chin et al., Cal. Prac. Guide Employment
Litigation (The Rutter Group 2019) Ch. 2(II)-B, § 5:
1750.)
To the extent that plaintiff asserts “he reasonably
and in good faith believed Brooks’ directive authorized
an unlawful act,” plaintiff pointed to no legal foundation
to provide good faith for his suspicion and produced
no evidence that he had reasonable cause for that
belief. That plaintiff actually believed Brooks authorized
an unlawful act is simply insufficient to prove a
violation of Labor Code section 1102.5. Plaintiff created
no triable issue of material fact on the fourth cause of
action.

App.24a
5.

Fifth Cause of Action for Retaliation in Violation
of Health and Safety Code Section 1278.5

In the fifth cause of action, plaintiff alleged that,
as a “health facility,” CCHCS “violated Health &
Safety Code [section] 1278.5 by terminating his employment in retaliation for the complaints he made to
[CCHCS] about the quality of patient care and patient
safety issues as well as his refusal to falsely document
medical records through the inclusion of false
information.”
Under the Government Claims Act, a party cannot
bring suit for “money or damages” against a public
entity unless “a written claim therefor has been
presented to the public entity and has been acted
upon by the board, or has been deemed to have been
rejected by the board.” (Gov. Code, § 945.4; see Gov.
Code, § 905.2, subd. (b)(3).) Under Government Code
section 945.4, “presentation of a timely claim is a
condition precedent to the commencement of suit
against a public entity.” (Munoz v. State of California
(1995) 33 Cal.App.4th 1767, 1776-1777.) To be timely,
a claim of this sort must be filed with what is now
the Department of General Services’s Government
Claims Program within six months of the accrual of
the action. (Gov. Code, § 911.2.)
Plaintiff did not allege that he complied with the
Government Claims Act, and did not provide a copy of
any claim. Plaintiff’s failure to file a claim under the
Government Claims Act is dispositive of the fifth
cause of action.
Plaintiff argues that his March 7, 2016 whistleblower retaliation complaint filed with the State Personnel Board was the functional equivalent of filing a

App.25a
claim under the Government Claims Act. Plaintiff
cites Cornejo v. Lightbourne (2013) 220 Cal.App.4th
932, 941 (Cornejo), for support of his argument that
because “this claim was duly presented to a State
administrative procedure, [sic] the purposes of the
Government Claims Act have been met and no provision of the Act bar [plaintiff’s] claim on this point.”
Cornejo is inapt as it addressed a claim brought,
not under Health and Safety Code section 1278.5, but
rather under the California Whistleblower Protection
Act (WPA) (Gov. Code, § 8547, et seq.). (Cornejo, supra,
220 Cal.App.4th at p. 937.) The Cornejo plaintiff contended that the WPA was not subject to the Government Claims Act procedure “because [the WPA] has a
comprehensive
administrative
procedure
that
satisfies the purposes of the presentation procedure in
the [Government] Claims Act.” (Ibid.) The Cornejo
court agreed that claims brought under the WPA
specifically were not subject to the Government Claims
Act procedures; the court limited its holding to WPA
claims. (Id. at pp. 938-942.)
As the court explained: “Ordinarily, filing a claim
with a public entity pursuant to the [Government]
Claims Act is a jurisdictional element of any cause of
action for damages against the public entity.” (Cornejo,
supra, 220 Cal.App.4th at p. 938.) The court recognized
that while there are “certain types of claims . . . expressly exempted from the presentation requirement,”
none of which are at issue here, “a court will infer a
legislative intent to excuse compliance only where a
claim is based on a statutory scheme with a ‘functionally equivalent claim process’ and a comparable
scheme for administrative enforcement.” (Ibid.) The
court observed, “Such exceptions to the presentation

App.26a
procedure are rarely found,” (ibid.) and that “other
than a vintage decision . . . involving a somewhat
obscure flood repair law [the Emergency Flood Relief
Act],” the “only claims to date found exempt from the
presentation requirement . . . are those arising under
the FEHA.” (Id. at p. 939.) The court added claims
brought under the WPA to the limited list of claims
exempt from the presentation requirement based on
the WPA’s own comprehensive administrative procedure. (Id. at pp. 942-943.)
In contrast, Health and Safety Code section
1278.5 (under which plaintiff brings the fifth cause of
action) is not part of a statutory scheme with a “functionally equivalent claim process” and scheme for
enforcement comparable to the Government Claims
Act. Plaintiff cites no law showing otherwise, and we
agree with the trial court that the failure to present a
Government Claim doomed the fifth cause of action.
6.

Sixth Cause of Action for Violation of the WPA

Plaintiff’s Sixth Cause of Action for violation of
the Whistleblower Protection Act (WPA), Government
Code section 8547, alleged that CCHCS “violated the
[WPA] by terminating his employment in retaliation
for the complaints he made to [CCHCS] about the
quality of patient care and patient safety issues as
well as his refusal to falsify document medical records
through the inclusion of false information.”
For a Government Code section 8547 retaliation
claim, plaintiff was required to plead (1) he engaged
in a protected activity; (2) he was subjected to an
adverse action by his employer; and (3) a causal connection between the two. (Morgan v. Regents of
University of the University of California (2000) 88

App.27a
Cal.App.4th 52, 69.) The retaliatory motive may be
shown by evidence “that plaintiff engaged in protected
activities, that his employer was aware of the protected
activities, and that the adverse action followed within
a relatively short time thereafter.” (Id. at p. 69.)
The sole adverse action plaintiff alleged in his
sixth cause of action-and the only action argued on
appeal—in retaliation for his filing of his State Personnel Board Complaint on March 7, 2016 was his
“termination.”
As we have already discussed, plaintiff was not
terminated, but rather transferred to CalVet for his
own reasons. That plaintiff did not understand that
his voluntary assumption of the CalVet nurse’s position
precluded his working for CCHCS at Lancaster Prison
did not convert his unforced job change into a wrongful
termination.
The trial court’s ruling on the sixth cause of action
was correct.
DISPOSITION
The judgment is affirmed. Defendant California
Correctional Health Care Services is awarded costs on
appeal.
RUBIN, P.J.

App.28a
CONCURRING OPINION OF JUSTICE BAKER
(AUGUST 14, 2020)
MOOR, J. BAKER, J., Concurring
I join the majority’s opinion with the exception of
Part 4 of the Discussion. I believe summary adjudication of plaintiff Arno Kuigoua’s fourth cause of action
for whistleblower retaliation was warranted because
there is no substantial evidence of causation in the
summary judgment record. (Sangster v. Paetkau
(1998) 68 Cal.App.4th 151, 162-163 [“in order to avert
summary judgment the plaintiff must produce substantial responsive evidence sufficient to establish a
triable issue of material fact on the merits of the
defendant’s showing”]; see also Hager v. County of Los
Angeles (2014) 228 Cal.App.4th 1538, 1540 [“The
plaintiff must show he engaged in protected activity,
his employer subjected him to an adverse employment
action, and there is a causal link between the two”].)
BAKER, J.

App.29a
JUDGMENT OF THE SUPERIOR COURT
OF THE STATE OF CALIFORNIA
(MAY 31, 2018)
SUPERIOR COURT OF THE STATE OF
CALIFORNIA, COUNTY OF LOS ANGELES
CENTRAL DISTRICT
________________________
ARNO P. KUIGOUA,

Plaintiff,
v.
CALIFORNIA CORRECTIONS HEALTH CARE
SERVICES, a Division of the CALIFORNIA
DEPARTMENT OF CORRECTIONS &
REHABILITATION, a Governmental Entity and
DOES 1 to 10, Inclusive,

Defendants.
________________________
Case No. BC608602
Before: Hon. David S. CUNNINGHAM III, Judge.
Defendant California Correctional Health Care
Services (“CCHCS”), or in the alternative, Motion for
Summary Judgment, or in the alternative Motion for
Summary Adjudication, came on regularly for hearing
in Department 37 of this Court on May 17, 2018,
before the Honorable David S. Cunningham III, judge
presiding. Xavier Becerra, Attorney General, by Deputy
Attorney General Jasmine K. Bath and Supervising

App.30a
Deputy Attorney General Elisabeth Frater appeared
on behalf of the Defendant. Emmanuel Nsahlai, Esq.
appeared on behalf of Plaintiff, Arno P. Kuigoua
(“Plaintiff”).
After considering the documents filed in support
of, in opposition to, the Motion, as well as in Reply to
the Opposition and the oral arguments made at the
hearing, the Court ruled that Plaintiff has set forth no
evidence that raises a triable issue of material fact
and that Defendant is entitled to judgment, as a
matter of law under Code of Civil Procedure section
437c. Thereafter, the Court adopted its tentative
ruling as final. (A true and correct copy of the Court’s
tentative ruling adopted as its final ruling is attached
as Exhibit “A”.)
IT IS ORDERED, ADJUDGED AND DECREED
that:
1. Judgment shall be entered in favor of Defendant
and against Plaintiff on the complaint; and
2. Defendant shall be entitled to costs as allowed
by law.
/s/ Hon. David S. Cunningham III
Judge of the Superior Court
Dated: May 31, 2018

